Nos. 19-1241
IN THE

NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
v.

Petitioners,

PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Of the
International Center of Law & Economics As Amicus Curiae In Support Of
Petitioners contains 5,281 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 22, 2020.

s/William Kolasky
WILLIAM KOLASKY
HUGHES HUBBARD & REED LLP
1775 I Street N.W.
Washington, D.C. 20006
(202) 721-4771

